 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 NEBRASKA CLAIMED UNALLOWABLE
FEDERAL REIMBURSEMENT FOR SOME
MEDICAID PHYSICIAN-ADMINISTERED
            DRUGS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General
                                                    for Audit Services

                                                        August 2014
                                                       A-07-13-06040
                      Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigation
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Nebraska claimed $2.5 million over 3 years in Federal reimbursement that was
 unallowable and $869,000 that may have been unallowable because it did not comply with
 Federal Medicaid requirements for billing manufacturers for rebates for physician-
 administered drugs.

WHY WE DID THIS REVIEW

For a covered outpatient drug to be eligible for Federal reimbursement under the Medicaid
program’s drug rebate requirements, manufacturers must pay rebates to the States, and States
generally must offset their Federal share of these rebates against their Medicaid expenditures.
States bill the manufacturers for rebates to reduce the cost of drugs to the program. However, a
recent Office of Inspector General review found that States did not always bill and collect all
rebates due for drugs administered by physicians.

Our objective was to determine whether the Nebraska Department of Health and Human
Services, Division of Medicaid and Long-Term Care (State agency), complied with Federal
Medicaid requirements for billing manufacturers for rebates for physician-administered drugs.

BACKGROUND

The Medicaid drug rebate program became effective in 1991 (the Social Security Act, § 1927).
For a covered outpatient drug to be eligible for Federal reimbursement under the program, the
manufacturer must enter into a rebate agreement with the Centers for Medicare & Medicaid
Services (CMS) and pay quarterly rebates to the States. The Deficit Reduction Act of 2005
amended section 1927 of the Social Security Act to specifically address the collection of rebates
on certain physician-administered drugs. To collect these rebates, States submit to the
manufacturers the drug utilization data containing National Drug Codes (NDCs) for all single-
source physician-administered drugs and for the top 20 multiple-source physician-administered
drugs. Federal reimbursement for covered outpatient drugs administered by a physician is not
available to States that do not comply with Federal requirements for capturing NDCs to bill and
collect rebates.

The State agency is responsible for paying claims, submitting invoices to manufacturers, and
collecting Medicaid drug rebates for physician-administered drugs. The State agency uses its
claim utilization data for physician-administered drugs, which it derives from claims submitted
by providers, to bill manufacturers quarterly and to maintain a record of rebate accounts
receivable due from the manufacturers.

WHAT WE FOUND

The State agency did not always comply with Federal Medicaid requirements for billing
manufacturers for rebates for physician-administered drugs. The State agency did not collect the
NDCs (from claims submitted by providers) that were required for it to invoice manufacturers
for rebates associated with $4,114,707 ($2,456,631 Federal share) in physician-administered


Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)             i
drugs. Of this amount, $3,376,414 ($2,015,620 Federal share) was for single-source drugs, and
$738,293 ($441,011 Federal share) was for top-20 multiple-source drugs. Because the State
agency did not obtain NDC-level detail on the claims and did not submit utilization data to the
manufacturers to collect rebates, the State agency improperly claimed Federal reimbursement for
these single-source drugs and top-20 multiple-source drugs.

The State agency did not capture the utilization and coding data necessary to collect rebates for
all physician-administered drugs. Without the NDCs, we were unable to determine whether the
State agency improperly claimed Federal reimbursement for an additional $1,460,514 ($869,291
Federal share) for other physician-administered drug claims that may have included single-
source drugs.

The State agency required providers to include NDCs on all physician-administered drug claims,
and the State agency notified providers that it would deny claims that did not include NDCs.
However, the State agency did not have a system edit in place to reject all of the claims that were
submitted without NDCs. As a result, the State agency did not collect the drug utilization data
necessary to bill the manufacturers for rebates associated with these physician-administered drug
claims, and the claims were therefore ineligible for Federal reimbursement.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund to the Federal Government $2,015,620 (Federal share) for claims for single-source
        physician-administered drugs that were ineligible for Federal reimbursement,

    •   refund to the Federal Government $441,011 (Federal share) for claims for top-20
        multiple-source physician-administered drugs that were ineligible for Federal
        reimbursement,

    •   work with CMS to determine the unallowable portion of the $869,291 (Federal share) for
        other claims for outpatient physician-administered drugs that were ineligible for Federal
        reimbursement and refund that amount,

    •   work with CMS to determine and refund the unallowable Federal reimbursement for
        physician-administered drugs claimed without NDCs and not billed for rebates after
        January 1, 2012, and

    •   update its system edits to require NDCs for payment on all drug claims to ensure that all
        drugs eligible for drug rebates are invoiced.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency partially agreed with our first two
recommendations, disagreed with our third recommendation, and agreed with our fourth and fifth



Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)             ii
recommendations. The State agency also described corrective actions that it had taken or
planned to take.

The State agency did not agree with the amounts of the refunds that we specified in our first two
recommendations. For each of these recommendations, State agency officials said that they
would analyze the ineligible claims that we had identified and work with CMS to determine the
portion of the Federal share identified in each of our first two recommendations that could not be
invoiced and refund those amounts. The State agency disagreed with our third recommendation.
State agency officials said that the Federal regulations cited in this report do not require States to
invoice drug manufacturers for all outpatient physician-administered drugs.

After reviewing the State agency’s comments, we continue to recommend that the State agency
refund the amounts (the identified Federal shares) in our first two recommendations because it
did not obtain NDC-level detail on the claims and did not provide utilization data to the
manufacturers to collect rebates as required for single-source physician-administered drugs and
top-20 multiple-source physician-administered drugs. We also maintain that our third
recommendation remains valid because the State agency did not collect the drug utilization data
necessary to bill the manufacturers for rebates associated with other physician-administered drug
claims and may have improperly received Federal reimbursement for certain physician-
administered drugs.




Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)              iii
                                                     TABLE OF CONTENTS

INTRODUCTION .................................................................................................................1

           Why We Did This Review .........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 Medicaid Drug Rebate Program ....................................................................1
                 Physician-Administered Drugs ......................................................................2
                 The State Agency’s Medicaid Drug Rebate Program ....................................2

           How We Conducted This Review..............................................................................2

FINDINGS .............................................................................................................................3

           Federal and State Requirements and State Agency Guidance ...................................4

           The State Agency Did Not Bill Manufacturers for Rebates on
            Some Single-Source Physician-Administered Drugs .............................................4

           The State Agency Did Not Bill Manufacturers for Rebates on
            Some Top-20 Multiple-Source Physician-Administered Drugs .............................4

           The State Agency Did Not Bill Manufacturers for Rebates on
            Other Physician-Administered Drugs .....................................................................5

RECOMMENDATIONS .......................................................................................................5

STATE AGENCY COMMENTS ..........................................................................................6

OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................6

APPENDIXES

           A: Related Office of Inspector General Reports .......................................................8

           B: Audit Scope and Methodology.............................................................................9

           C: Federal and State Requirements and Guidance
              Related to Physician-Administered Drugs ..........................................................12

           D: State Agency Comments …………………………………………………….....14




Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)                                                      iv
                                                INTRODUCTION

WHY WE DID THIS REVIEW

For a covered outpatient drug to be eligible for Federal reimbursement under the Medicaid
program’s drug rebate requirements, manufacturers must pay rebates to the States, and States
generally must offset their Federal share of these rebates against their Medicaid expenditures.
States bill the manufacturers for rebates to reduce the cost of drugs to the program. However, a
recent Office of Inspector General review found that States did not always bill and collect all
rebates due for drugs administered by physicians. 1 (Appendix A lists previous reviews of the
Medicaid drug rebate program.)

OBJECTIVE

Our objective was to determine whether the Nebraska Department of Health and Human
Services, Division of Medicaid and Long-Term Care (State agency), complied with Federal
Medicaid requirements for billing manufacturers for rebates for physician-administered drugs.

BACKGROUND

Medicaid Drug Rebate Program

The Medicaid drug rebate program became effective in 1991 (the Social Security Act (the Act),
§ 1927). For a covered outpatient drug to be eligible for Federal reimbursement under the
program, the drug’s manufacturer must enter into a rebate agreement with the Centers for
Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States. CMS, the States,
and drug manufacturers each have specific functions under the program.

Manufacturers are required to submit a list to CMS of all covered outpatient drugs and to report
each drug’s average manufacturer price and, where applicable, best price. 2 On the basis of this
information, CMS calculates a unit rebate amount for each drug and provides the information to
the States each quarter. Covered outpatient drugs reported by participating drug manufacturers
are listed in the CMS Medicaid Drug File, which identifies drugs with such fields as National
Drug Code (NDC), unit type, units per package size, and product name.

Section 1903(i)(10) of the Act prohibits Federal reimbursement for States that do not capture the
information necessary for billing manufacturers for rebates as described in section 1927 of the
Act. To bill for rebates, States must capture drug utilization data that identifies, by NDC, the
number of units of each drug for which the States reimbursed Medicaid providers and must
report the information to the manufacturers (the Act, § 1927(b)(2)(A)). The number of units is
multiplied by the unit rebate amount to determine the actual rebate amount due from each
manufacturer.

1
    States’ Collection of Medicaid Rebates for Physician-Administered Drugs (OEI-03-09-00410), issued June 2011.
2
    Section 1927(b) of the Act and section II of the Medicaid rebate agreement.



Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)                            1
States report drug rebate accounts receivable data to CMS on the Medicaid Drug Rebate
Schedule. This schedule is part of the Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program report, which contains a summary of actual Medicaid expenditures
for each quarter and is used by CMS to reimburse States for the Federal share of Medicaid
expenditures.

Physician-Administered Drugs

Drugs administered by a physician are typically billed to the Medicaid program on a claim form
using Healthcare Common Procedure Coding System (HCPCS) codes. For purposes of the
Medicaid drug rebate program, physician-administered drugs are classified as either single-
source or multiple-source. 3

The Deficit Reduction Act of 2005 (DRA) amended section 1927 of the Act to specifically
address the collection of rebates on physician-administered drugs for all single-source physician-
administered drugs and for the top 20 multiple-source physician-administered drugs. 4 Beginning
on January 1, 2007, CMS was responsible for publishing annually the list of the top 20 multiple-
source drugs by HCPCS codes that had the highest dollar volume dispensed. Before the DRA,
many States did not collect rebates on physician-administered drugs if the drug claims did not
contain NDCs. NDCs allow States to identify the drug and its manufacturer to collect drug
rebates.

The State Agency’s Medicaid Drug Rebate Program

The State agency is responsible for paying claims, submitting invoices to manufacturers, and
collecting Medicaid drug rebates for physician-administered drugs. The State agency also
requires all physician-administered drug claims to be submitted with the “… exact NDC that
appears on the product administered.” 5 The State agency uses its claim utilization data for
physician-administered drugs, which it derives from claims submitted by providers, to bill
manufacturers quarterly and to maintain a record of rebate accounts receivable due from the
manufacturers. The manufacturers then pay the rebates directly to the State agency.

HOW WE CONDUCTED THIS REVIEW

The State agency claimed $45,941,955 ($27,191,859 Federal share) for physician-administered
drugs paid between January 1, 2009, and December 31, 2011. Of this, we reviewed $5,575,221

3
 As specified in CMS’s Medicare Claims Processing Manual, chapter 17, section 20.1.2, a single-source drug is a
drug for which there is not another therapeutically equivalent drug listed in the most recent Food and Drug
Administration (FDA) Orange Book. Multiple-source drugs, by contrast, are drugs for which there are two or more
drug products that are rated as therapeutically equivalent in the most recent FDA Orange Book.
4
 The term “top-20 multiple-source drugs” is drawn from a CMS classification and describes these drugs in terms of
highest dollar volume of physician-administered drugs in Medicaid. The Act, section 1927(a)(7)(B)(i).
5
    Nebraska Provider Bulletin, number 08-03, dated January 31, 2008.




Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)                             2
($3,325,922 Federal share) that the State agency claimed for physician-administered drugs that
were submitted with a HCPCS code but without an NDC.

We used CMS’s Medicare Part B crosswalk to identify, if possible, the NDCs associated with
each HCPCS code listed on claims from providers. We then used the CMS Medicaid Drug File
to identify whether the identified NDCs were classified as single-source drugs or multiple-source
drugs. 6 Additionally, we determined whether the HCPCS codes were published in CMS’s top-
20 multiple-source drug listing.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                                 FINDINGS

The State agency did not always comply with Federal Medicaid requirements for billing
manufacturers for rebates for physician-administered drugs. The State agency did not collect the
NDCs (from claims submitted by providers) that were required for it to invoice manufacturers
for rebates associated with $4,114,707 ($2,456,631 Federal share) in physician-administered
drugs. Of this amount, $3,376,414 ($2,015,620 Federal share) was for single-source drugs, and
$738,293 ($441,011 Federal share) was for top-20 multiple-source drugs. Because the State
agency did not obtain NDC-level detail on the claims and did not submit utilization data to the
manufacturers to collect rebates, the State agency improperly claimed Federal reimbursement for
these single-source drugs and top-20 multiple-source drugs.

The State agency did not capture the utilization and coding data necessary to collect rebates for
all physician-administered drugs. Without the NDCs, we were unable to determine whether the
State agency improperly claimed Federal reimbursement for an additional $1,460,514 ($869,291
Federal share) for other physician-administered drug claims that may have included single-
source drugs.

The State agency required providers to include NDCs on all physician-administered drug claims,
and the State agency notified providers that it would deny claims that did not include NDCs.
However, the State agency did not have a system edit in place to reject all of the claims that were
submitted without NDCs. As a result, the State agency did not collect the drug utilization data


6
  The Medicare Part B crosswalk is published quarterly by CMS and is based on published drug and biological
pricing data and information submitted to CMS by manufacturers. It contains the payment amounts that will be used
to pay for Part B covered drugs as well as the HCPCS codes associated with those drugs. CMS instructed States that
they could use the Medicare Part B crosswalk as a reference because HCPCS codes and NDCs are standardized
codes used across health care programs.



Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)                          3
necessary to bill the manufacturers for rebates associated with these physician-administered drug
claims, and the claims were therefore ineligible for Federal reimbursement.

FEDERAL AND STATE REQUIREMENTS AND STATE AGENCY GUIDANCE

The DRA amended section 1927 of the Act to specifically address the collection of rebates on
physician-administered drugs. States must capture NDCs for single-source and top-20 multiple-
source drugs (the Act, § 1927(a)(7)). Federal regulations prohibit Federal reimbursement for
physician-administered drugs unless the States submit to manufacturers drug utilization data
containing the NDCs (42 CFR § 447.520).

The Nebraska HHS [Health and Human Services] Finance and Support Manual states that “[t]he
Medicaid division may issue provider bulletins to inform providers of regulation
interpretations.” 7 Through the Nebraska Provider Bulletin, number 08-03, dated January 31,
2008, the State agency notified providers that “… claims for all physician administered
medications will require submission of NDCs.” In addition, through the Nebraska Provider
Bulletin, number 10-31, dated June 30, 2010, the State agency notified providers that “[c]laims
submitted for payment that do not meet the NDC reporting requirements to include a valid NDC,
quantity, and unit of measurement will result in line item denial.”

Appendix C contains Federal and State requirements related to physician-administered drugs.

THE STATE AGENCY DID NOT BILL MANUFACTURERS FOR REBATES ON
SOME SINGLE-SOURCE PHYSICIAN-ADMINISTERED DRUGS

The State agency improperly claimed Federal reimbursement of $3,376,414 ($2,015,620 Federal
share) for single-source physician-administered drug claims for which it did not bill
manufacturers for rebates. These claims were submitted without NDCs and, therefore, the State
agency did not provide utilization data to the manufacturers to collect the drug rebates.

Because the State agency did not bill for rebates for all single-source physician-administered
drugs, these claims were not eligible for Federal reimbursement.

THE STATE AGENCY DID NOT BILL MANUFACTURERS FOR REBATES ON
SOME TOP-20 MULTIPLE-SOURCE PHYSICIAN-ADMINISTERED DRUGS

The State agency improperly claimed Federal reimbursement of $738,293 ($441,011 Federal
share) for top-20 multiple-source physician-administered drug claims for which it did not collect
rebates. The claims were submitted without NDCs and, therefore, the State agency did not
provide utilization data to the manufacturers to collect rebates.

During our audit period, CMS provided the State agency, on a yearly basis, with a listing of top-
20 multiple-source HCPCS codes and their respective NDCs. The State agency said that it had

7
 Nebraska HHS Finance and Support Manual, Manual letter number 59-2003 (revised October 15, 2003), 471
Nebraska Administrative Code (NAC) 2-000, chapter 2-000, section 2-001.08.



Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)                  4
configured its automated system to automatically reject any top-20 multiple-source drug claims
that had been submitted without corresponding NDCs. However, the State agency’s system edits
did not always reject these claims.

Because the State agency did not bill for rebates for all top-20 multiple-source physician-
administered drugs, the claims that were not billed for rebates were not eligible for Federal
reimbursement.

THE STATE AGENCY DID NOT BILL MANUFACTURERS FOR REBATES ON
OTHER PHYSICIAN-ADMINISTERED DRUGS

The State agency did not capture the utilization and coding data necessary to collect rebates for
all physician-administered drugs. Without the NDCs, we were unable to determine whether the
State agency improperly claimed Federal reimbursement for an additional $1,460,514 ($869,291
Federal share) for other physician-administered drug claims that may have included single-
source drugs. 8

The State agency required providers to include NDCs on all physician-administered drug claims.
However, the State agency did not have an edit in place to reject all of the claims that were
submitted without NDCs. As a result, the State agency did not collect the drug utilization data
necessary to bill the manufacturers for rebates associated with these claims and was unable to
determine whether manufacturers paid rebates for all of the required physician-administered
drugs.

Accordingly, we set aside the $1,460,514 ($869,291 Federal share) for CMS’s adjudication.

                                        RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government $2,015,620 (Federal share) for claims for single-source
        physician-administered drugs that were ineligible for Federal reimbursement,

    •   refund to the Federal Government $441,011 (Federal share) for claims for top-20
        multiple-source physician-administered drugs that were ineligible for Federal
        reimbursement,

    •   work with CMS to determine the unallowable portion of the $869,291 (Federal share) for
        other claims for outpatient physician-administered drugs that were ineligible for Federal
        reimbursement and refund that amount,




8
 HCPCS codes for drugs that are included in this finding have both single-source and multiple-source NDCs
associated with them.



Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)                     5
    •   work with CMS to determine and refund the unallowable Federal reimbursement for
        physician-administered drugs claimed without NDCs and not billed for rebates after
        January 1, 2012, and

    •   update its system edits to require NDCs for payment on all drug claims to ensure that all
        drugs eligible for drug rebates are invoiced.

                                 STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially agreed with our first two
recommendations, disagreed with our third recommendation, and agreed with our fourth and fifth
recommendations. The State agency also described corrective actions that it had taken or
planned to take.

Regarding our first and second recommendations, the State agency did not agree with the
amounts of the refunds that we specified. For the first recommendation, State agency officials
said that they would analyze the ineligible claims that we had identified and invoice the
respective drug labelers for claims for which there were unique NDCs. For the second
recommendation, State agency officials said that the classifications used were as reported to
CMS by drug labelers, and added that they believe that there were “instances of erroneous
classification” involving some of the top-20 multiple-source drugs in the associated finding. The
officials also stated that they would work with CMS to determine the portion of the Federal share
($2,015,060 for the first recommendation, $441,011 for the second) that could not be invoiced
and refund those amounts to the Federal Government on mutually agreed dates.

The State agency disagreed with our third recommendation. State agency officials said that the
Federal regulations cited in this report (42 CFR § 447.520) do not require States to invoice drug
manufacturers for all outpatient physician-administered drugs.

The State agency’s comments appear in their entirety as Appendix D.

                      OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we continue to recommend that the State agency
refund the amounts (the identified Federal shares) in our first two recommendations. Federal
regulations set conditions for States to obtain a Federal share for covered outpatient drugs
administered by a physician. These regulations state that no Federal share is available for
physician-administered drugs for which a State has not required the submission of claims using
codes that identify the drugs sufficiently for the State to bill a manufacturer for rebates (42 CFR
§ 447.520). The State agency did not meet the conditions needed to obtain the Federal share.
Specifically, the State agency did not obtain NDC-level detail on the claims and did not provide
utilization data to the manufacturers to collect rebates as required for single-source physician-
administered drugs and top-20 multiple-source physician-administered drugs.

Further, we disagree with the State agency’s assertion that there were “instances of erroneous
classification,” because for this review we classified physician-administered drugs according to



Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)               6
the Medicaid Drug File and the top-20 multiple-source drug listings published by CMS. (See
“How We Conducted This Review” and Appendix B.) Moreover, the decisions as to precise
amounts of refunds from the State agency rest with CMS, as the cognizant operating division,
when it works with the State agency during the audit resolution process. Accordingly, if the
State agency can retrospectively obtain the rebates from the applicable manufacturers and offer
to remit the Federal share of the rebates to CMS, during audit resolution CMS will decide how to
adjust overpayment amounts.

For our third recommendation, we agree with the State agency’s interpretation of the Federal
regulations. For this final report, we slightly revised some of the language in the associated
finding regarding other physician-administered drug claims to clarify that these claims may have
included single-source drugs. 9 Because the State agency did not collect the drug utilization data
necessary to bill the manufacturers for rebates associated with these other physician-
administered drug claims, it may have improperly received Federal reimbursement for certain
physician-administered drugs. We therefore continue to recommend that the State agency work
with CMS to determine the unallowable portion of the $869,291 (Federal share) for other claims
for outpatient physician-administered drugs that were ineligible for Federal reimbursement and
refund that amount.




9
  For example, HCPCS code J1260 (injection, dolasetron mesylate, 10 milligrams; this medication is used to prevent
nausea and vomiting associated with chemotherapy) has associated with it a number of NDCs, at least one of which
is classified as a single-source drug.



Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)                          7
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                                           Date Issued
                    Report Title                             Report Number

Idaho Did Not Bill Manufacturers for Rebates for              A-09-12-02079                 April 2014
Some Medicaid Physician-Administered Drugs
Oregon Claimed Unallowable Federal Medicaid
                                                              A-09-12-02080                 April 2014
Reimbursement by Not Billing Manufacturers for
Rebates for Some Physician-Administered Drugs
Maryland Claimed Unallowable Federal
                                                              A-03-12-00200               November 2013
Reimbursement for Some Medicaid Physician-
Administered Drugs
Oklahoma Complied With the Federal Medicaid
                                                              A-06-12-00059               September 2013
Requirements for Billing Manufacturers for
Rebates for Physician-Administered Drugs
Nationwide Rollup Report for Medicaid Drug                    A-06-10-00011                August 2011
Rebate Collections
States’ Collection of Medicaid Rebates for                   OEI-03-09-00410                June 2011
Physician-Administered Drugs
Follow-Up Audit of the Medicaid Drug Rebate                   A-09-07-00052                March 2008
Program in Oregon
Medicaid Rebates for Physician-Administered                  OEI-03-02-00660                April 2004
Drugs




Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)                  8
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

The State agency claimed $45,941,955 ($27,191,859 Federal share) for physician-administered
drugs paid between January 1, 2009, and December 31, 2011. Of this, we reviewed $5,575,221
($3,325,922 Federal share) that the State agency claimed for physician-administered drugs that
were submitted with a HCPCS code but without an NDC.

Our audit objective did not require an understanding or assessment of the complete internal
control structure of the State agency. We limited our internal control review to obtaining an
understanding of the State agency’s processes for reimbursing physician-administered drug
claims and its process for claiming and obtaining Medicaid drug rebates for physician-
administered drugs.

We conducted our audit work, which included visiting and contacting the State agency in
Lincoln, Nebraska, from November 2012 through January 2014.

METHODOLOGY

To accomplish our objective, we took the following steps:

    •   We reviewed applicable Federal laws, regulations, and guidance pertaining to the
        Medicaid drug rebate program and physician-administered drugs.

    •   We interviewed CMS officials about the Federal requirements and guidance governing
        physician-administered drugs under the Medicaid drug rebate program.

    •   We reviewed State agency regulations and guidance to providers, including billing
        instructions for physician-administered drugs.

    •   We reviewed State agency policies and procedures for rebates for physician-administered
        drugs.

    •   We interviewed State agency personnel to gain an understanding of the administration of
        and controls over the Medicaid billing and rebate process for physician-administered
        drugs.

    •   We obtained listings of the CMS top-20 multiple-source physician-administered drugs,
        the Medicare Part B crosswalk, and the CMS Medicaid Drug File for our audit period.

    •   We obtained claim details from the State agency for all drug claims, including physician-
        administered drugs, for the period January 1, 2009, through December 31, 2011.

    •   We obtained a drug listing from the State agency that was used, according to State
        agency officials, to identify the NDCs of drugs by HCPCS code.


Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)             9
     •   We obtained the listing of 340B entities from the State agency. 10

     •   We removed drug claims totaling $33,303,083 ($19,662,833 Federal share) that either
         were not eligible for a drug rebate (including the drug claims submitted by 340B entities)
         or contained an NDC (which according to State agency officials would already have been
         rebated).

     •   We also removed drug claims totaling $7,063,651 ($4,203,104 Federal share) that were
         submitted without an NDC but that had a HCPCS code that matched the State-maintained
         drug listing. According to State agency officials, the drug listing would have identified
         the NDCs associated with the drug claims for rebate purposes.

     •   We reviewed the remaining drug claims totaling $5,575,221 ($3,325,922 Federal share)
         to determine whether the State agency complied with Federal Medicaid requirements for
         billing manufacturers for rebates for physician-administered drugs. Specifically:

             o We identified single-source drugs by matching the HCPCS code on the drug
               claim to the HCPCS code on CMS’s Medicare Part B crosswalk to identify, if
               possible, the NDCs associated with each HCPCS code listed on claims from
               providers. We used the CMS Medicaid Drug File to identify whether these NDCs
               were classified as single-source drugs. (Because there were often multiple NDCs
               associated with a single HCPCS code, we were not always able to identify the
               specific NDC that should have been submitted to the drug manufacturer for rebate
               purposes.)

             o We identified the top 20 multiple-source drugs by matching the HCPCS code on
               the drug claim to the HCPCS code on CMS’s top-20 multiple-source drug listing.

             o We classified the remaining drugs (ones that were not identified as single-source
               or as top-20 multiple-source drugs) as other outpatient physician-administered
               drugs.

     •   We selected a judgmental sample of five drug claims and the claims related to five NDCs
         to test the billing and collection of rebates by reviewing copies of rebate invoices
         submitted to the manufacturers and the resulting remittances.

     •   We discussed the results of our review with State agency officials on January 8, 2014.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


10
  A 340B entity receives reduced-price outpatient drugs from manufacturers; examples of 340B entities are State
AIDS drug assistance programs and Medicare/Medicaid disproportionate share hospitals.



Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)                           10
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)        11
      APPENDIX C: FEDERAL AND STATE REQUIREMENTS AND GUIDANCE
              RELATED TO PHYSICIAN-ADMINISTERED DRUGS

FEDERAL LAWS

Under the Medicaid program, States may provide coverage for outpatient drugs as an optional
service (the Act, § 1905(a)(12)). Section 1903(a) of the Act provides for Federal financial
participation (Federal share) in State expenditures for these drugs. The Medicaid drug rebate
program, created by the Omnibus Budget Reconciliation Act of 1990 that added section 1927 to
the Act, became effective on January 1, 1991. Manufacturers must enter into a rebate agreement
with the U.S. Department of Health and Human Services (HHS) and pay rebates for States to
receive Federal funding for the manufacturer’s covered outpatient drugs dispensed to Medicaid
patients (the Act, § 1927(a)). Responsibility for the drug rebate program is shared among the
drug manufacturers, CMS, and the States.

Section 6002 of the DRA added section 1927(a)(7) to the Act to require that States capture
information necessary to secure rebates from manufacturers for certain covered outpatient drugs
administered by a physician. In addition, section 6002 of the DRA amended section 1903(i)(10)
of the Act to prohibit Medicaid Federal share for covered outpatient drugs administered by a
physician unless the States submit the utilization and coding data described in section 1927(a)(7)
of the Act.

Section 1927(a)(7) of the Act requires that States capture utilization and coding data necessary to
secure rebates for all single-source physician-administered drugs effective January 1, 2006, and
for the top 20 multiple-source drugs effective January 1, 2008. Section 1927(a)(7)(C) of the Act
stated that, effective January 1, 2007, the utilization data must be submitted using the NDC.

Section 1927(a)(7)(D) of the Act allowed HHS to delay any of the above requirements to prevent
hardship to States that required additional time to implement the physician-administered drug
reporting requirements.

FEDERAL REGULATIONS

Federal regulations set conditions for States to obtain a Federal share for covered outpatient
drugs administered by a physician and specifically state that no Federal share is available for
physician-administered drugs for which a State has not required the submission of claims using
codes that identify the drugs sufficiently for the State to bill a manufacturer for rebates (42 CFR
§ 447.520).

Federal regulations in effect during most of the audit period defined a brand-name drug as a
single-source or innovator multiple-source drug and, in relevant part, a multiple-source drug as a
covered outpatient drug for which there is at least one other drug product that is rated as
therapeutically equivalent (42 CFR § 447.502). 11

11
  On November 15, 2010, CMS amended 42 CFR § 447.502 to remove the definition of multiple-source drug
(75 Fed. Reg. 69591, 69592 (November 15, 2010)).



Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)                 12
STATE REGULATIONS AND GUIDANCE

The Nebraska HHS Finance and Support Manual, Manual letter number 59-2003 (revised
October 15, 2003), 471 NAC 2-000, chapter 2-000, section 2-001.08, states that “[t]he Medicaid
division may issue provider bulletins to inform providers of regulation interpretations.” Through
the Nebraska Provider Bulletin, number 08-03, dated January 31, 2008, the State agency notified
providers that:

        [t]he Deficit Reduction Act of 2005 (DRA) requires states to collect rebates for
        physician administered drugs. As a result, states must now collect the 11-digit
        NDC on all outpatient claims for drugs administered during the course of a
        patient’s clinic visit. Providers are required to submit their claims with the exact
        NDC that appears on the product administered. The NDC is found on the
        medication’s packaging and must be submitted in the 5 digit-4 digit-2 digit
        format.

In addition, through the Nebraska Provider Bulletin, number 10-31, dated June 30, 2010,
the State agency notified providers that “[c]laims submitted for payment that do not meet
the NDC reporting requirements to include a valid NDC, quantity, and unit of
measurement will result in line item denial.”




Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)         13
                        APPENDIX D: STATE AGENCY COMMENTS





Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)   14
Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)   15
Nebraska Medicaid Payments Associated With Physician-Administered Drugs (A-07-13-06040)   16
